No.___________
IN THE SUPREME COURT OF THE UNITED
STATES
Estate of MONROE F. MARSH, Deceased.
___________________________________
MICHAEL WEISS, as Executor Estate of Jane L. Marsh
etc., Petitioner
v.
DAMON MARSH, et al., as Executor, etc., Respondents
__________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO
CALIFORNIA COURT OF APPEALS, DISTRICT 4, DIV 3
_______________________________________________________
APPENDIX TO PETITION FOR WRIT OF
CERTIORARI
Michael A Weiss Bar # 175272
LAW OFFICE MICHAEL WEISS
63 Lakefront Irvine, California 92604
949-654-9919 Attorney for Petitioners
michael-weiss@msn.com

APPENDIX TABLE OF CONTENTS

Page

re $640,000 cashier check

1. Opinion Filed 8-30-19 Dismiss Appeal G058123

1

E. JLM Notice of Election to take Under Law

54

2. 6-4-19 Minute Order Granting Final Probate

5

F. Ct Appeal Acknowledge Heir Could Pay

55

Distribution, and Order re: Objections and Cross Complaint
3. 7-31-19 Minute Order Denying Motion to

7

Vacate Pre Filing Order and Remove Name From
Vexatious Litigation List & Form Order re same

Mortgage
G. Unfairness Issue

56

H. False Recitals in Orders

58

10. Other Materials Essential to

4. 8-4-17 Minute Order CCP 391.7 Vex Lit #2

9

Understanding the Petition

5. 2-10-15 Order Grant CCP 128.7 Vex Lit #1

14

A. Trust Deed Payoff Docs

6. 8-12-10 Consolidation Order

17

7. 11-20-19 Order Cal Supreme Court Review Deny

22

8. Constitutional Clauses & Statutes Involved

23

9. Time, Method & Manner of Raising &

38

59

Denying Federal Issues
A. Prior Restraint

38

B. U.S. Constitution Rights

42

C. Fundamental Principles

51

D. Lack of Juris in Probate & Unclean Hands

52

i

59

ii

Ex 1

G058123 Opinion

Court of Appeal, Fourth Appellate
District, Div Three Kevin J Lane,
Clerk/Executive Officer
Electronically Filed on 8/30/2019
by Bonnie LeSage, Deputy Clerk

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT DIVISION THREE

subject to a prefiling order to file a new appeal or other litigation is a
determination to be made on a case by case basis, and Mr. Weiss is
required to support his request to file the appeal by providing “facts
and legal authority telling the court with specificity why his appeal
or petition has merit.” (In re R.H. (2009) 170 Cal.App.4th 678, 708.)

Estate of MONROE F. MARSH, Deceased.
___________________________________
DAMON MARSH, et al., as Executor, etc.,
Petitioners and Respondents,
v.
MICHAEL WEISS, Individually and as
Executor, etc.,
Claimant and Appellant.
__________________________________

Mr. Weiss has not demonstrated the proposed litigation has merit
and is not being filed to harass or delay. This is the 12th appellate
proceeding initiated in the past 8 years by Mr. Weiss in this probate
case concerning the Estate of Monroe F. Marsh (Marsh), the
deceased husband of his now deceased mother, virtually all of which

G058123
(Super. Ct. No. 30-2009-00331535)
ORDER

have been resolved unsuccessfully for Mr. Weiss. (G044938,
G045474, G045889, G046446, G048211, G051978, G052082,

Michael Weiss, a vexatious litigant subject to a prefiling order,
G052208, G052574, G054553, G054796.) The details of the dispute,
has submitted a request to file an appeal from numerous orders
legal issues and dispositions are set forth in this court’s nine prior
dating back to August 10, 2010. To maintain this appeal, Mr. Weiss
opinions and need not be detailed here.
must obtain permission from the presiding justice of this court,
Five of the orders from which Mr. Weiss wishes to appeal were
which shall be granted only if she determines that the litigation has
the subjects of, and affirmed by, this court in our numerous prior
merit and is not being filed to harass or delay. (Code Civ. Proc.,
opinions. Mr. Weiss would like to again challenge those orders on
391.7, subd. (b).) Whether to grant permission to a vexatious litigant
the same grounds raised his numerous prior appeals that the orders
1

2

are void due to lack of trial court subject matter jurisdiction and that

Proc., 391.8.) The trial court found there was no showing by Mr.

this court misapplied principles of res judicata and collateral estoppel

Weiss of (1) a material change of facts since the prefiling order was

in affirming various orders in its prior appeals. Mr. Weiss has not

entered; and (2) that justice would be served by removing his name

demonstrated any meritorious grounds for his repeated attacks on

from the list. With regard to this order, Mr. Weiss’s request for

orders long ago reviewed and affirmed by this court.

permission appears to be largely premised on claims the prefiling

The new orders Mr. Weiss seeks to appeal include a June 4, 2019

order was based on faulty analysis in this court’s and the trial court’s

minute order in which the trial court approved respondents petition

prior rulings regarding the merits of his claims against the Marsh

for final distribution of Marsh’s estate and declined to consider Mr.

estate. He has not offered evidence there has been a change of facts

Weiss’s objections because (1) he had not sought permission to file

regarding his litigation activities or that justice would be served by

the objections; and (2) as this court has concluded in several of our

removing his name from the Judicial Council Vexatious Litigant

prior opinions, he has no standing to object to orders concerning the

List. Mr. Weiss also suggests his appeal would challenge the

distribution of Monroe’s estate because this court has repeatedly

constitutionality of the vexatious litigant statutes, but those claims

determined he has no interest in the estate (see e.g., G054796). Mr.

have been roundly rejected. (See e.g., Fink v. Shemtov (2010) 180

Weiss has offered no reasonable basis on which to permit him to

Cal.App.4th 1160, 1170.)

relitigate the issue of standing long ago and repeatedly put to rest by
this court.

Because Mr. Weiss’s request for permission to file this appeal
does not satisfy the requirements of Code of Civil Procedure section

Mr. Weiss also seeks to challenge the July 31, 2019 minute order
denying his application to vacate the prefiling order and remove his
name from the Judicial Council Vexatious Litigant List (Code Civ.
3

391.7, subdivision (b), it is DENIED. Accordingly, the appeal is
DISMISSED.
O’LEARY, P. J.
4

attorney Michael Weiss on 5/28/2019. Attorney Stephen M. Magro
argues and objects to it being filed as there is a Cross Petition within
the objection.
Ex. 2 Minute Order 6-4-19
SUPERIOR COURT OF CALIFORNIA, COUNTY OF ORANGE
CENTRAL JUSTICE CENTER MINUTE ORDER
DATE: 06/04/2019 TIME: 09:00:00 AM DEPT: C07
COMMISSIONER: Edward Hall
CLERK: Isabel Molina
REPORTER/ERM: (ACRPT) Kendra Davis-Montgomery CSR#
8881 BAILIFF/COURT ATTENDANT: Gurrola, Martina
CASE NO: 30-2009-00331535-PR-PW-CJC CASE INIT.DATE:
12/24/2009
CASE TITLE: Marsh-Probate
CASE CATEGORY: Probate
CASE TYPE: Probate of Will Letters Testamentary
______________________________________
EVENT ID/DOCUMENT ID: 72923089
EVENT TYPE: (P) Petition for Final Distribution
MOVING PARTY: STEPHEN D MARSH, DAMON MARSH
CAUSAL DOCUMENT/DATE FILED: Petition for Final
Distribution, 10/30/2018
___________________________
APPEARANCES
Attorneys for Damon Marsh - Stephen Magro and Andrew C.
Kemper Attorney for the Estate of Jane L. Marsh - Michael Weiss
___________________________
Posted Notice in the Courtroom notifies all litigants that the case

Attorney Michael Weiss represents to the Court he was advised
by Department C1 permission was not required due to filing being an
objection.
Court reviewed Order Declaring Michael A. Weiss a Vexatious
Litigant filed on 09/05/2017 and recites paragraph five of said order
on the record.
The Court also reviewed the appellate decision finding Michael
Weiss has no interest in the estate.
Court determines Michael Weiss has no standing and did not
obtain permission from the Presiding Judge.
Petition for Final Distribution filed by Stephen D. Marsh and
Damon Marsh is approved as supplemented.

is being heard by a Commissioner and that failure to object will be
deemed acceptance of the Commissioner as a temporary judge.
Discussions held on the record regarding the Objection filed by
5

6

Ex 3

Minute Order 7-31-19 Deny Mo Remove List & Reopen
Probate
SUPERIOR COURT OF CALIFORNIA, COUNTY OF ORANGE
CENTRAL JUSTICE CENTER
MINUTE ORDER
DATE: 07/31/2019 TIME: 11:47:00 AM DEPT: C08
JUDICIAL OFFICER PRESIDING: Kim Hubbard
CLERK: Heather G Potter REPORTER/ERM: None
BAILIFF/COURT ATTENDANT: None
CASE NO: 30-2009-00331535-PR-PW-CJC CASE INIT.DATE:
12/24/2009
CASE TITLE: Marsh-Probate
CASE CATEGORY: Probate
CASE TYPE: Probate of Will Letters Testamentary
EVENT ID/DOCUMENT ID: 73097806
EVENT TYPE: Chambers Work
___________________________
APPEARANCES
There are no appearances by any party.
___________________________
The Court, having read and considered Michael Weiss'

the order. (See Code of Civil Procedure 391.8(c). See also, Luckett

Application for Order to Vacate Prefiling Order and Remove

statewide list in the following case or cases (if more than one, list

Plaintiff/Petitioner from Judicial Council Vexatious Litigant List,

each separately):

now rules as follows:

entered against him and (2) that justice would be served by vacating

Court: Superior Court Orange County Case Name: Estate of Monroe
Marsh
Case Number: 30-2009-00331535PR-PW-CJC
Date prefiling order entered: 8-4-17; 8-16-17; 9-5-17
[X] Continued on Attachment (form MC-025)
[ ] Granted
[X] Denied
Date: JUL 31 2019
Kim Hubbard
Presiding Justice of Judge
_____________________

7

8

Denied. Mr. Weiss seeks an order vacating the pre-filing order
issued against him in August 2017 and removing him from the
Judicial Council's Vexatious Litigant List But there is no showing
(1) of a material change in facts since the prefiling order was

v. Panos (2008) 161 Cal.App.4th 77, 93-94 [providing relevant
criteria to consider in determining whether there has been a change
of circumstances to support vacating the pre-filing order].)
The formal order was signed this date. Court orders Clerk to give
notice.
______________________________________
_________________________
ORDER ON APPLICATION TO VACATE PREFILING ORDER
AND REMOVE PLAINTIFF/PETITIONER FROM JUDICIAL
COUNCIL VEXATIOUS LITIGANT LIST
Plaintiff/Petitioner Michael Weiss, requests that this court vacate
the prefiling order and remove the vexatious litigant's name from the

The clerk is ordered to provide this order to the Judicial Council of
California by fax at 415-865-4329 or by mail at the address below.

Attorney Michael Weiss a vexatious litigant and issue a prefiling
order pursuant to Code of Civil Procedure section 391.7.
Preliminarily, the court clarifies that its 2014 denial of the

Ext 4 8-4-17 M.O. CCP 391.7 2nd Vex Lit
DATE: 08/04/2017
SUPERIOR COURT OF CALIFORNIA, COUNTY OF ORANGE
CENTRAL JUSTICE CENTER MINUTE ORDER
TIME: 10:49:00 AM DEPT: COB
JUDICIAL OFFICER PRESIDING: Kim Hubbard
CLERK: Jodi L Gamboa REPORTER/ERM: None
BAILIFF/COURT ATTENDANT: None
CASE NO: 30-2009-00331535-PR-PW-CJC CASE !NIT.DATE:
12/24/2009
CASE TITLE: Marsh-Probate
CASE CATEGORY: Probate
CASE TYPE: Probate of Will Letters Testamentary
EVENT ID/DOCUMENT ID: 72637931
EVENT TYPE: Under Submission Ruling
APPEARANCES
There are no appearances by any party.

moving parties' prior motion to deem Mr. Weiss a vexatious litigant
was intended to be without prejudice. As can be inferred from the
ruling, the court's decision was largely based on the practical
assessment that there was no feasible way to enforce a prefiling
order against Mr. Weiss at that time. (See MP RJN at p. 254.) With
the passing of Jane Marsh, Mr. Weiss's mother, circumstances have
changed. Moreover, there is now additional procedural history on
which to base this ruling.
In conformity with In re Kinney (2011) 201 Cal.App.4th 951,

The Court, having taken the above-entitled matter under
959, the court is of the opinion that pleadings and other papers filed
submission on 8/2/2017 and having fully considered the arguments
by Mr. Weiss in this case in the name of Jane Marsh are properly
of all parties, both written and oral, as well as the evidence
attributable to Mr. Weiss. Mr. Weiss has been the driving force and
presented, now rules as follows:
the actual "litigant" in this case since its inception. Court records
The court grants the motion by Stephen D. Marsh and Damon
show that Ms. Marsh passed away on March 16, 2015 (see OCSC
Marsh (as co-Executors of the Estate of Monroe F. Marsh, aka
case no. 30-2015-00788075), and yet the arguments and patterns of
Monroe Franklin Marsh) (collectively, "Co-Executors") to declare
papers filed by Mr. Weiss has remained constant. The court further
9

10

observes that Ms. Marsh never appeared in these proceedings and

easy fit in the probate context. (See 6/6/17 Mem. at pp. 11-12.) Even

was never really personally involved. Up to the time of her death,

so, it is fair to say that, in the seven years preceding the filing of the

Ms. Marsh seemed to be only a "strawman" client. As the son of Ms.

motion at bar, Mr. Weiss commenced or maintained at least five

Marsh and beneficiary as well as personal representative of her

litigations finally determined adversely to him, as set forth on page

estate, Mr. Weiss personally stands to gain from any claims made on

17 of the opening memorandum. He has also repeatedly attempted to

Ms. Marsh's (or now, her estate's) behalf against the estate of

relitigate the same issues, even though they were finally determined.

Monroe Marsh, Ms. Marsh's late husband.

(See 6/6/17 Mem. at pp. 13-17.) The court especially takes notice of

As with the attorney in Kinney, Mr. Weiss potentially falls

the latest Notice of Appeal filed on 3/30/17, which lists 23 orders,

within three of the four definitions for "vexatious litigant" as set

minute orders, and other miscellaneous items, some stretching back

forth in Code of Civil Procedure section 391(b): (1) in the preceding

as far as 2010. These matters encompass issues that have already

seven years, he has commenced, prosecuted, or maintained at least

been conclusively decided by the appellate court. Furthermore, as

five litigations finally determined adversely to him; (2) he has

both the appellate court and trial court have already commented at

repeatedly relitigated or attempted to relitigate the validity of

various times, many of Mr. Weiss's pleadings and arguments have

controversies that were already finally determined; and (3) he has

been deemed unmeritorious or objectively frivolous. (See, e.g., MP

filed unmeritorious motions, pleadings, or other papers and engaged

RJN at pp. 76, 127-128, 297-303.)

in other tactics that were frivolous or solely intended to cause
unnecessary delay. See CCP 391(b)(1)-(3).
The Marshes correctly remark in their opening brief that the civil
nomenclature of "plaintiff'' and "defendant" is not necessarily an
11

The court is aware that there is no hearing on any petition
pending before the trial court at this time; the petitions for
preliminary distribution are up on appeal. However, a prefiling order
against a vexatious litigant may be requested and issued even in the
12

absence of pending litigation. See Bravo v. Ismaj (2002) 99

findings of fact and conclusions of law, and judgments." '

Cal.App.4th 211, 222 (affirming civil trial court's prefiling order

[Citations.] Although the existence of statements contained in a

against defendant following entry of judgment). In this case, the

deposition transcript filed as part of the court record can be judicially

estate of Mr. Marsh has not yet been closed. It is therefore inevitable

noticed, their truth is not subject to judicial notice.")

that additional pleadings will be filed in this matter. And if the

Court records indicate that another request for judicial notice was

history of this case is any indicator, that fact also entails additional

filed on 8/3/17, but the court cannot access this document at the time

motions, ex parte applications, and perhaps petitions from Mr.

of its ruling and therefore denies the request.

Weiss. Consequently, it is the judgment of this court that a prefiling
order is appropriate and may help deter future unnecessary litigation.
With regard to the request for judicial notice filed by the moving
parties on 6/6/17 and the request for judicial notice filed by Mr.

The court disregards the objections filed by Mr. Weiss on
7/19/17. The objections are improper as to form and content.
Copy of minute order sent to attorneys Stephen Magro and
Michael Weiss.

Weiss on 8/1/17, the court takes judicial notice of the existence of
the court filings, but not the truth of hearsay statements contained
therein. Likewise, the court takes judicial notice of the existence of
statements contained in the reporters' transcripts, but their truth is not
subject to judicial notice. See Garcia v. Sterling (1985) 176
Cal.App.3d 17, 22 (" ' "... A court may take judicial notice of the
existence of each document in a court file, but can only take judicial
notice of the truth of facts asserted in documents such as orders,
13

Ex 5 CCP 128.7 Sanction Order 1st Vex Lit Order (Partial)
ELECTRONICALLY RECEIVED
Superior Court of California,
County of Orange
0210/2015 at 08:00:00 Plvl
Clerk of the Superior Court By Laura Ojeda. Deputy Clerk
SUPERIOR COURT OF CALIFORNIA COUNTY OF ORANGE
14

CENTRAL JUSTICE CENTER
Stephen M. Magro (132196)
LAW OFFICES OF STEPHEN M. MAGRO
14101 Yorba Street, Suite 101 Tustin, California 927803
Telephone (714) 832-8456
Facsimile (714) 832-8470
Attorney for Stephen D. Marsh and
Damon Marsh, Co-Executors
FEB 10 2015
Alan Cranston Clerk of the Court
BY: DEPUTY
SUPERIOR COURT OF CALIFORNIA
COUNTY OF ORANGE, CENTRAL JUSTICE CENTER
Estate of MONROE F. MARSH, also known as MONROE
FRANKLIN MARSH,
Deceased
Case No. 30-2009-00331535-PR-PW-CJC
General Jurisdiction (Probate Court)
Assigned for all purposes to: Not Assigned Dept: Not Assigned
Hearing Date: January 23, 2015 Time: 10:30 a.m.
Dept: C8
Hearing Judge: Honorable Kim R. Hubbard Date Action Filed:
12/19/2014 Trial Date: N/A
ORDER GRANTING SANCTIONS AGAINST MICHAEL A.
WEISS UNDER CODE OF CIVIL PROCEDURE SECTION 128.7
The Order to Show Cause why Michael Weiss, the son and

Kim R. Hubbard, Judge, presiding.
Stephen M. Magro, of the Law Offices of Stephen M. Magro,
appeared on behalf of Stephen D. Marsh and Damon Marsh,
Co-Executors of the Estate of Monroe F. Marsh, Deceased. Michael
A. Weiss appeared on his own behalf as a self-represented litigant.
There were no other appearances.
The Court, having read memoranda of points and authorities,
request for judicial notice and declarations filed by the parties, and
having heard oral argument of the parties, finds as follows;
1. The Request for Judicial Notice filed by Stephen D. Marsh
and Damon Marsh, Co- Executors of the Estate of Monroe F. Marsh,
Deceased, should be granted.
2. The imposition of sanctions against Michael A. Weiss is
appropriate.

attorney for Jane Marsh (Jane Marsh is the Decedent's surviving
THEREFORE, IT IS HEREBY ORDERED THAT:
spouse) in this matter, should not be sanctioned under Code of Civil
8. The court also imposes the following directive: If Mr. Weiss
Procedure section 128.7, which Order to Show Cause was set by the
wishes to file additional
Court on its own motion, came on regularly for hearing at 10:30 a.m.
pleadings in this case, he is required to first submit them to the
on January 23, 2015 in Department C8 of this Court, the Honorable
Supervising Judge of the Probate Department of the Orange County
15

16

Superior Court for approval before they can be actually filed.
Proposed pleadings may be submitted to the clerk in Department C9
of this court and addressed to the Probate Supervising Judge.
Dated: FEB 10 2015
Kim R. Hubbard, Judge of the Superior Court
JUDGE KIM R. HUBBARD

Ex 6 8-12-10 Order Consolidating Actions
STEPHEN M. MAGRO (132196)
FILED
Attorney at Law
Superior Court of
California
14101 Yorba Street, Suite 101
County of Orange
Tustin, California 92780
Lamoreaux Justice Center
Telephone (714) 832-8456
AUG 12 2010
Facsimile (714) 832-8470
Alan Carlson, Clerk of
Court
ARTHUR J. STABILE, Of Counsel (049795)
Attorney for Petitioners and Defendants, and Moving Parties,
Stephen D. Marsh and Damon Marsh
SUPERIOR COURT OF CALIFORNIA
COUNTY OF ORANGE, LAMOREAUX JUSTICE CENTER
Estate of MONROE F. MARSH, also )
known as MONROE FRANKLIN MARSH,)
Deceased.
17

_______________________
Jane L. Marsh
Plaintiff,
v.
Stephen D. Marsh; Damon Marsh; Monroe F. Marsh
Defendants.
Case No. 30-2009-00331535-PR-PW-LJC
General Jurisdiction (Probate Court)
Assigned for all purposes to: Judge Mary Fingal Schulte Dept: L72
ORDER CONSOLIDATING ACTIONS
Hearing Date: August 12, 2010
Time: 1:30 p.m. Dept: L72
Hearing Judge: Hon. Mary Fingal Schulte
Date Action Filed: 12/24/2009 Trial Date: Not Applicable
Case No: 30-2010-00384291-CU-PO-CJC
Assigned for all purposes to: Judge Andrew P. Banks
Dept: Cll
Date Action filed: 6/24/2010 Trial Date: Not Applicable
The Motion to Consolidate Actions filed in this matter by
Petitioners and Defendants and Moving Parties, Stephen D. Marsh
and Damon Marsh, came on regularly for hearing at 1:30 p.m. on
August 12, 2010, in Department L72 of this Court, the Honorable
Mary Fingal Schulte, Judge, presiding. Appearances were as follows:
In Case No. 30-2009-00331535-PR-PW-LJC, Stephen M. Magro,
Esq., appeared on behalf of Petitioners and Moving Parties, Stephen
D. Marsh and Damon Marsh. In Case No.
30-2010-00384291-CU-PO-CJC, Stephen M. Magro, Esq., appeared
on behalf of Defendants and Moving Parties, Stephen D. Marsh and
18

Damon Marsh. There were no other appearances.
An opposition to the Motion to Consolidate Actions was filed by

IT IS FURTHER ORDERED THAT:
1. The following matters shall be consolidated in Department L72 of

Objector and Opposing Party, Jane L. Marsh, by and through her

this Court for all purposes:

attorney of record in both matters, Michael A. Weiss, Esq. However,

(a) Estate of Monroe F. Marsh, also known as Monroe Franklin

no appearance was made by Objector and Opposing Party, Jane L.

Marsh, Deceased, Case No. 30-2009-00331535-PR-PW-LJC (the

Marsh, at the hearing on the motion.

"Probate Matter") and, (b) Jane L. Marsh, Plaintiff. v. Stephen D.

Evidence having been presented to the satisfaction of the Court,

Marsh; Damon Marsh; Monroe F, Marsh. Defendants, Case No.

and the Court having read the motion and papers filed by the parties

30-2010-00384291-CU-PO-CJC (the "Civil Matter").

and having heard oral argument of counsel for the Defendants and

2. All papers shall be filed in Estate of Monroe F. Marsh, also known

Moving Parties, the Court finds as follows:

as Monroe Franklin Marsh, Deceased, Case No. 30-2009-

The issues of law and fact underlying the contentions of the

00331535-PR-PW-LJC (which is the lead case) and shall cross

parties in both Estate of Monroe F. Marsh, also known as Monroe

reference Jane L. Marsh, Plaintiff, v. Stephen D. Marsh; Damon

Franklin Marsh, Deceased, Case No. 30-2009-00331535-PR-PW-

Marsh; Monroe F. Marsh, Defendants, Case No.

LJC and, Jane L. Marsh, Plaintiff, v. Stephen D, Marsh; Damon

30-2010-00384291-CU-PO-CJC (the "Civil Matter").

Marsh; Monroe F. Marsh. Defendants. Case No.

3. This order is entered without prejudice to future motions for

30-2010-00384291-CU-PO-CJC are common to both such cases,

orders setting separate trials on some or all of the issues involved in

that consolidation of these cases will not be unduly complicated, and

these cases to the extent this Court concludes that such relief is

consolidation will not adversely affect the rights of any party.

appropriate under the circumstances.

THEREFORE, IT IS ORDERED THAT the motion is granted,
19

4. The trial which is set in this Probate Matter to take place on
20

October 6, 2010 in Department L72 of this Court shall be the trial on

Mary Fingal Schulte, Judge the Superior Court

only the Petition for Probate of Will and Letters Testamentary filed
in the Probate Matter by Petitioners, Stephen D. Marsh and Damon
Marsh.
5. A Trial Setting Conference is set on the First Amended Complaint
which was filed by Plaintiff, Jane L. Marsh, in the Civil Matter and

7. A copy of this Order shall be filed in each case consolidated by

Ex 7 Order 11-20-18 Cal Supreme Ct (Review Denied)
Supreme Court
SUPREME COURT
FILED
NOV 20 2019
Jorge Navarrete Clerk
Court of Appeal, Fourth Appellate District, Division Three - No.
0058123
S258476
IN THE SUPREME COURT OF CALIFORNIA
En Banc
___________________________________
Estate of MONROE F. MARSH, Deceased.
__________________________________
DAMON MARSH, as Executor, etc. et al., Petitioners and
Respondents,
v.
MICHAEL WEISS, Individually and as Executor, etc., Claimant and
Appellant.

this Order.

The petition for review is denied.

Dated: AUG 12 2010

CANTIL-SAKAUYE
_________________
Chief Justice

will take place on November 22, 2010, at 1:30 p.m. in Department
172 of this Court located at 341 The City Drive, Orange, California
92868.
6, The Clerk of this Court shall accept for filing the demurrer of
Defendants, Stephen D. Marsh and Damon Marsh, to the First
Amended Complaint filed by Plaintiff, Jane L. Marsh, to be filed by
Defendants, Stephen D. Marsh and Damon Marsh, by not later than
August 17, 2010.

Mary Fingal Schulte
______s_______
21

22

respecting an establishment of religion, or prohibiting the free
8. CONSTITUTION CLAUSES-STATUTES INVOLVED
U.S. Const. Art. 3 Section 2. The judicial Power shall extend to
all Cases, in Law and Equity, arising under this Constitution, the
Laws of the United States, and Treaties made, or which shall be

exercise thereof; or abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.
U.S. Const. Amendment IV. The right of the people to be secure

made, under their Authority; to all Cases affecting Ambassadors,

in their persons, houses, papers, and effects, against unreasonable

other public Ministers and Consuls, to all Cases of admiralty and

searches and seizures, shall not be violated, and no Warrants shall

maritime Jurisdiction, to Controversies to which the United States

issue, but upon probable cause, supported by Oath or affirmation,

shall be a Party to Controversies, between two or more States,

and particularly describing the place to be searched, and the persons

between a State and Citizens of another State between Citizens of

or things to be seized.

different States, between Citizens of the same State claiming Lands

US Const. Amendment V. No person shall be held to answer for

under Grants of different States, and between a State, or the Citizens

a capital, or otherwise infamous crime, unless on a presentment or

thereof, and foreign States, Citizens or Subjects.

indictment of a Grand Jury, except in cases arising in the land or

US Const Art. 4 Section 1. Full Faith and Credit shall be given in

naval forces, or in the Militia, when in actual service in time of War

each State to the public Acts, Records, and judicial Proceedings of

or public danger; nor shall any person be subject for the same

every other State. And the Congress may by general Laws prescribe

offence to be twice put in jeopardy of life or limb; nor shall be

the Manner in which such Acts, Records and Proceedings shall be

compelled in any criminal case to be a witness against himself, nor

proved, and the Effect thereof.

be deprived of life, liberty, or property, without due process of law;

U.S. Const. Amendment I: Congress shall make no law
23

nor shall private property be taken for public use, without just
24

compensation.

jurisdiction the equal protection of the laws.

U.S. Const. Amendment VII. In Suits at common law, where the

Calif. Const. Art. 1, º26. The provisions of this Constitution are

value in controversy shall exceed twenty dollars, the right of trial by

mandatory and prohibitory, unless by express words they are

jury shall be preserved, and no fact tried by a jury, shall be otherwise

declared to be otherwise.

reexamined in any Court of the United States, than according to the
rules of the common law.

Calif. Const. Art. 1, º2. (a) Every person may freely speak, write
and publish his or her sentiments on all subjects, being responsible

U.S. Const. Amendment VIII. Excessive bail shall not be
required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.

for the abuse of this right. A law may not restrain or abridge liberty
of speech or press.
Calif. Const. Art. 6 Sec. 3. The Legislature shall divide the State

US Const. Amendment X. The powers not delegated to the

into districts each containing a court of appeal with one or more

United States by the Constitution, nor prohibited by it to the States,

divisions. Each division consists of a presiding justice and 2 or more

are reserved to the States respectively, or to the people.

associate justices. It has the power of a court of appeal and shall

U.S. Const Amendment XIV Section 1. All persons born or
naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States;

conduct itself as a 3-judge court. Concurrence of 2 judges present at
the argument is necessary for a judgment.
Calif. Const. Art. 6 Sec. 4. In each county there is a superior
court of one or more judges.
Calif. Const. Art. 6 Sec. 11. (a) The Supreme Court has appellate

nor shall any State deprive any person of life, liberty, or property,

jurisdiction when judgment of death has been pronounced. With that

without due process of law; nor deny to any person within its

exception courts of appeal have appellate jurisdiction when superior

25

26

courts have original jurisdiction in causes of a type within the

subdivision (b) or are responsible for the violation. In determining

appellate jurisdiction of the courts of appeal on June 30, 1995, and in

what sanctions, if any, should be ordered, the court shall consider

other causes prescribed by statute.

whether a party seeking sanctions has exercised due diligence.

Civil Code º1085. A present interest, and the benefit of a

Code of Civ.Proc. §391.7. (a) In addition to any other relief

condition or covenant respecting property, may be taken by any

provided in this title, the court may, on its own motion or the motion

natural person under a grant, although not named a party thereto.

of any party, enter a prefiling order which prohibits a vexatious

Code of Civ.Proc. º128.7. (b) By presenting to the court, whether

litigant from filing any new litigation in the courts of this state in

by signing, filing, submitting, or later advocating, a pleading,

propria persona without first obtaining leave of the presiding justice

petition, written notice of motion, or other similar paper, an attorney

or presiding judge of the court where the litigation is proposed to be

or unrepresented party is certifying that to the best of the person's

filed. Disobedience of the order by a vexatious litigant may be

knowledge, information, and belief, formed after an inquiry

punished as a contempt of court.

reasonable under the circumstances, all of the following conditions
are met:

(1) It is not being presented primarily for an improper

purpose, such as to harass or to cause unnecessary delay or needless
increase in the cost of litigation....
(c) If, after notice and a reasonable opportunity to respond, the

(b) The presiding justice or presiding judge shall permit the
filing of that litigation only if it appears that the litigation has merit
and has not been filed for the purposes of harassment or delay....
(d) For purposes of this section, “litigation” includes any
petition, application, or motion other than a discovery motion, in a

court determines that subdivision (b) has been violated, the court

proceeding under the Family Code or Probate Code, for any order.

may, subject to the conditions stated below, impose an appropriate

[Amended by Stats. 2011, Ch. 49, Sec. 1. Effective January 1,

sanction upon the attorneys, law firms, or parties that have violated

2012]

27

28

Code of Civ.Proc. §430.80. (a) If the party against whom a

what application was made before, when and to what judge, what

complaint or cross-complaint has been filed fails to object to the

order or decisions were made, and what new or different facts,

pleading, either by demurrer or answer, that party is deemed to have

circumstances, or law are claimed to be shown. For a failure to

waived the objection unless it is an objection that the court has no

comply with this subdivision, any order made on a subsequent

jurisdiction of the subject of the cause of action alleged in the

application may be revoked or set aside on ex parte motion.

pleading or an objection that the pleading does not state facts
sufficient to constitute a cause of action.
Code of Civ.Proc. 577. Judgment Defined: A judgment is the

(e) This section specifies the court’s jurisdiction with regard
to applications for reconsideration of its orders and renewals of
previous motions, and applies to all applications to reconsider any

final determination of the rights of the parties in an action or

order of a judge or court, or for the renewal of a previous motion,

proceeding.

whether the order deciding the previous matter or motion is interim

Code of Civ.Proc. º902. Party Aggrieved May Appeal. Any party

or final. No application to reconsider any order or for the renewal of

aggrieved may appeal in the cases prescribed in this title. A party

a previous motion may be considered by any judge or court unless

appealing is known as an appellant, and an adverse party as a

made according to this section.

respondent.

Code of Civ.Proc. 1916. Grounds for Impeaching Judgment:

Code of Civ.Proc. §1008. (b) A party who originally made an

Any judicial record may be impeached by evidence of a want of

application for an order which was refused in whole or part, or

jurisdiction in the court or judicial officer, of collusion between the

granted conditionally or on terms, may make a subsequent

parties, or of fraud in the party offering the record, in respect to the

application for the same order upon new or different facts,

proceedings.

circumstances, or law, in which case it shall be shown by affidavit
29

Code of Civ.Proc. 1917. Sufficiency to Sustain Jurisdiction: The
30

jurisdiction sufficient to sustain a record is jurisdiction over the
cause, over the parties, and over the thing, when a specific thing is
the subject of the judgment.

association.
(3) An asset of an unincorporated business if the other spouse is
the only spouse involved in operating and managing the business.

Family Code 751. The respective interests of the husband and
wife in community property during continuance of the marriage
relation are present, existing, and equal interests.
Family Code 1101. (b) A court may order an accounting of the

(4) Any other property, if the revision would adversely affect the
rights of a third person.
(f) Any action may be brought under this section without filing
an action for dissolution of marriage, legal separation, or nullity, or

property and obligations of the parties to a marriage and may

may be brought in conjunction with the action or upon the death of a

determine the rights of ownership in, the beneficial enjoyment of, or

spouse.

access to, community property, and the classification of all property
of the parties to a marriage.

(g) Remedies for breach of the fiduciary duty by one spouse,
including those set out in Sections 721 and 1100, shall include, but

(c) A court may order that the name of a spouse shall be added to

not be limited to, an award to the other spouse of 50 percent, or an

community property held in the name of the other spouse alone or

amount equal to 50 percent, of any asset undisclosed or transferred in

that the title of community property held in some other title form

breach of the fiduciary duty plus attorney's fees and court costs. The

shall be reformed to reflect its community character, except with

value of the asset shall be determined to be its highest value at the

respect to any of the following:

date of the breach of the fiduciary duty, the date of the sale or

(1) A partnership interest held by the other spouse as a general
partner.

disposition of the asset, or the date of the award by the court.
Probate Code 39. Fiduciary means personal representative,

(2) An interest in a professional corporation or professional
31

trustee, guardian, conservator, attorney in fact under a power of
32

attorney, custodian under the California Uniform Transfer To Minors

has the same power and authority with respect to the proceedings as

Act (Part 9 (commencing with Section 3900) of Division 4), or other

otherwise provided by law for a superior court, or a judge of the

legal representative subject to this code.

superior court, including, but not limited to, the matters authorized

Probate Code 48. Interested Person: (a) Subject to subdivision
(b), interested person includes any of the following: (1) An heir,
devisee, child, spouse, creditor, beneficiary, and any other person
having a property right in or claim against a trust estate or the estate

by Section 128 of the Code of Civil Procedure.
Probate Code § 1050. The judgment roll in a proceeding under
this code consists of the following papers, where applicable:
(a) In all cases: (1) The petition, application, report, or account

of a decedent which may be affected by the proceeding. (2) Any

that initiates a particular proceeding. (3) Any notice of the hearing,

person having priority for appointment as personal representative.

and any order to show cause made in the proceeding, with the

(3) A fiduciary representing an interested person. (b) The meaning of

affidavits showing publication, posting, mailing, or personal delivery

interested person as it relates to particular persons may vary from

of the notice or order as may be required by law or court order. (5)

time to time and shall be determined according to the particular

Any finding of the court or referee in the proceeding. (6) The order

purposes of, and matter involved in, any proceeding.

or statement of decision made in the proceeding. (7) Any letters (as

Probate Code § 100. (a) Upon the death of a person who is
married or in a registered domestic partnership, one-half of the

defined in Section 52).
(b) If an answer, demurrer, written opposition, or counter

community property belongs to the surviving spouse and the other

petition is filed in a proceeding: (1) Pleadings and papers in the

one-half belongs to the decedent.

nature of pleadings. (2) Any orders striking out a pleading in whole

Probate Code § 800. The court in proceedings under this code is
a court of general jurisdiction and the court, or a judge of the court,
33

or in part.
(e) If the proceeding is for the settlement of the final account of a
34

personal representative or for the final distribution of an estate, the

decedent’s estate), the insurance proceeds are excluded in

affidavit showing publication of notice to creditors.

determining the estate of the decedent or its value.

Probate Code § 6600. Decedent’s estate defined...

Probate Code 7000. Subject to Section 7001, title to a decedent's

(b) For the purposes of this chapter: (1) Any property or interest or

property passes on the decedent's death to the person to whom it is

lien thereon which, at the time of the decedent’s death, was held by

devised in the decedent's last will or, in the absence of such a devise,

the decedent as a joint tenant, or in which the decedent had a life or

to the decedent's heirs as prescribed in the laws governing intestate

other interest terminable upon the decedent’s death, shall be

succession.

excluded in determining the estate of the decedent or its value.

Probate Code 7001. The decedent's property is subject to

LAW REVISION COMMISSION COMMENTS

administration under this code, except as otherwise provided by law,

1990 Enactment

and is subject to the rights of beneficiaries, creditors, and other

Subdivision (b) is consistent with prior law. Estate of Pezzola,

persons as provided by law.

112 Cal.App.3d 752, 169 Cal.Rptr. 464 (1980). Subdivision (b)

Probate Code 7050. The superior court has jurisdiction of

excludes any interest that terminates at death in determining the

proceedings under this code concerning the administration of the

estate of the decedent or its value. If the interest is one that passes to

decedent's estate.

another on the death of the decedent by virtue of a contractual

LAW REVISION COMMISSION COMMENTS

provision subdivision (b)(1) requires that the value of the interest be

1990 Enactment

excluded in determining the estate of the decedent or its value. For

Subdivision (b) makes clear that the probate court, when

example, if there is a policy of insurance on the decedent’s life and

considering cases brought before it under this division, has all the

the proceeds are payable to a named beneficiary (not to the

powers of the superior court exercising its general jurisdiction.

35

36

Probate Code 10313. Court order confirming sale; conditions;

distribution may be made without loss to creditors or injury to the

compensation of agent or broker; order for new sale: (a) The court

estate or any interested person. (b) The order for distribution shall

shall make an order confirming the sale to the person making the

not be stayed until any bond required by the court is filed.

highest offer that satisfies the requirements of this article, and
directing conveyances or assignments or both to be executed, if it

9. TIME, METHOD, & MANNER OF RAISING & DENYING
FEDERAL ISSUES
The citations listed below are all arranged chronologically

appears to the court that all of the following requirements are

starting with 1st appeal number. The federal questions raised were

satisfied: (3) The sale was legally made and fairly conducted.

summarily denied or ignored in the accompanying appellate

Probate Code 10314. Execution of conveyance or assignment of
contract to purchase real property; copy of order to be recorded;

opinions.
A. PRIOR RESTRAINT

rights vested by conveyance or assignment: (a) Except as provided in

10-7-10 Dept L72 Order Sustaining Demurrer to 1st Amended

subdivision (b), upon confirmation of the sale, the personal

Complaint: (e) The issues raised by plaintiff are [already] the subject

representative shall execute a conveyance to the purchaser which

of a pending probate estate admin and must be addressed therein

shall refer to the order confirming the sale and directing the

under the principles of probate law and the procedures provided in

conveyance to be executed. A certified copy of the order shall be

the Probate Code. The 2nd cause of action at para 64 says the

recorded in the office of the recorder of the county in which the real

probate court lacks jurisdiction. This is incorrect and not the proper

property or some portion thereof is located.

way to challenge jurisdiction. [As for paragraph 1(e) not only is it

Probate Code º11621. Order for Distribution; Stay of

false because the issues raised were not the same but different

Proceedings Pending Filing of Bond: (a) The court shall order

because Jane L. Marsh claimed her separate property restitution

distribution under this article if at the hearing it appears that the

rights under law and her separate property was no part of Monroe’s

37

38

estate per Probate Code 6600(b) and related case law; but also

page 8 paragraph one re infringement of 4th amendment seizure of

because it acted as a prior restraint to pleading under federal

Jane L. Marsh’s contract rights under trust deed, her Moore-Marsden

Constitutional law by limiting it to probate law and probate

community property rights etc.; page 25 last paragraph re Code of

procedure hence infringing on U.S. Equal Protection Cl and 10th

Civ.Proc. 128.7 order is censorship and has no safeguards hence

Amendment State Powers Clauses.] 2-4-11 Dept L72 Order Denying

violating free speech clause; page 28 paragraph one re respondents

Motion to Vacate Judgment re 1st Amended Complaint under Code

unfairly infringing upon free speech, association, petition, equal

of Civ.Proc. 473: No grounds exist for vacating the order

protection, and due process clauses because they act in substantive

sustaining demurrer to 1st amended complaint or the order

patently arbitrary manner; page 54 paragraph 2 re excessive

dismissing 1st amended complaint or the order consolidating

punishment concerning Jane L. Marsh’s violation of no contest

actions under the U.S. Constitution. G044938 Verified Petition

clause in spouses last will. G054553 MAW 2-2-18 Opposition to

for Writ of Stay, Prohibition or Mandamus in California Supreme

OSC’s re Vexatious Litigant and Sanctions at page 23. G054796

Court Points and Authorities at pages 19, 20, 21, 33, 52. Case

ARB page 6, 2nd to last sentence re infringements of supremacy, due

number 18-1060 United States Supreme Court Certiorari Appendix

process, and free speech clauses concerning OSC pre-filing orders as

at page 79 regarding G052082 Reporter’s Transcript of 12-17-12 at

well as in the Code of Civ.Proc. 128.7 prefiling order; contract

page 5 remarks of Judge Schulte. G052208 Respondent’s Brief at

clause; page 7 last sentence re due process infringement concerning

page 44. G052208 AAO re petition for mandamus page 2422 last

Code of Civ.Proc. 128.7 order page 8 paragraph one re due process

paragraph complaining of free speech clause infringements due to

clause (substantive and procedural) infringement due to lack of full

prior restraint; page 2428 paragraph 7 re free speech clause and prior

and fair hearing; page 10, 2nd to last sentence and page 12 para 2

restraint. G052574 Respondent’s Brief at page 45. G052574 AOB

alleging supremacy, due process, and free speech clause

39

40

infringements concerning OSC pre-filing order re overbroad and

since it would interfere with their U.S. constitutional right of access

infringed on Excessive punishment Clause; page 15 paragraph one

to court to defend themselves. Also Dept C8 never had power under

concerning pre-filing order because it was not narrowly tailored and

U.S. constitution Equal Protection, nor 10th amendment State Power

infringed on rights under due process and excessive punishment

Clauses to exercise its constitutionally vested juris because

clauses since no balancing act analysis performed; page 22

Legislature limited its exercise when sitting in probate to “properly

paragraph 3 re infringement of petition, association, due process,

commenced” “proceedings under this code” per Probate code 7050

excessive punishment, and supremacy clauses; p. 30 sentence 1 re

and Probate code 800. Their two Petitions for Preliminary

supremacy clause; page 34 last sentence re supremacy clause; p.. 38

Distribution were not properly commenced due to failure to

at 2nd to last paragraph re excessive punishment clause; and, page 44

substantially comply with U.S. Due Process Clause requirement

paragraph one re infringement of due process, free speech, and

regarding proof of notice to Estate of Jane L. Marsh as a party.

supremacy clauses. G054796 Demurrer to OSC concerning pre-filing

G058123 Response to OSC re: New Litigation dated 8-23-19 at

order and sanctions page 8 paragraph 13; page 15 paragraph 23 are

pages 28, 29, 30, 43, 44, 52 and 96.

same in content as stated in G054553 Demurrer to OSC and see also

B. U.S. CONSTITUTIONAL RIGHTS

page 19:1st sentence re due process clause violation due to no

AOB in G044938 page 7 last paragraph re access to courts and

evidence. 8-4-17 Dept C8 M.O. 2nd Motion for Prefiling order is

citing to AAO page 13 paragraph 8 (Trial Court in effect granted

granted. The co-executors were plaintiffs in their two Petitions for

immunity to executors; due process clause violation due to no

Preliminary Distribution etc; and, Estate of Jane L. Marsh/Weiss

balancing act analysis; excessive punishment clause and petition

were defendants upon whom no prefiling order was possible per

clause violations; page 8 paragraph 4 to end; page 9 paragraph 2

John v. Superior Court (2016) 63 Cal.4th 91 [201 Cal.Rptr.3d 459]

unconstitutional forfeiture of $3,000,000 creditor claim due to

41

42

violation of meaningful opportunity to be heard. G044938 AOB re

infringement regarding first amended civil complaint. The same

motion to vacate page 41 paragraphs 7, 8, and 9 denial of right of

content is to be found in G046446 RT of 5-12-11; 9-14-11;

access to court, infringement of petition clause and excessive

10-13-11; 1-5-12 at page 4:3-12 re 7th amendment jury clause

punishment clauses; page 43 paragraphs 12, 13 and 14; page 45

infringement. G045474 AAO page 499 paragraph 12 re contract

paragraphs 19 through 21 infringements of due process clause and

clause infringement; page 719 etc paragraphs 4, 8, 10 through 12 and

petition clause; page 336 paragraph 12 contract clause violation;

17 through 19 and 21-23 re denial of access to court, due process

page 345 paragraph 12 contract clause. G044938 AAO at page

violation, petition clause and excessive punishment. G046446 p.

29:4-14 court order expressly denying US constitutional claims

398:22-25 re substantive due process clause infringement. G046446

regarding Jane L. Marsh first amended complaint and creditor’s

Declaration to Disqualify Justice Rylaarsdam paragraph one re due

claim; page 136:10 to 14 opposition to constitutional claims; page

process clause bias challenge which he later denied orally from the

416:24 through page 417:7 Republican Form of Government Cl

bench. G048211 AAO, page 640 paragraphs 27 through 30 re

infringement and Due Process Clause. G045474 ARB [appellants

infringements of petition clause; due process; equal protection, right

reply brief] page 2 paragraphs 6 -8 infringement of free speech

to pursue happiness privacy safety; excessive punishment clause;

clause. G045474 Motion to recall remittitur page 25, 2nd to last

and contract clause; page 645 sentence 3 re infringement of due

sentence re due process clause violation due to no opportunity to

process clause (substantive). G048211 ARB page 6 last paragraph re

respond. Same content in motion to recall remittitur in G052574 and

due process clause violation concerning Probate Code 11705 order

also see page 25, 2nd to last sentence re due process clause

and misleading court by respondents. G052082 AOB page 5 last 2

infringement regarding Judge Moberly’s OSC. G045474 RT of

sentences; page 32 sentence one. G052082 AAO page 349:17-19 re

5-5-11; 5-12-11; 5-13-11; 5-17-11 at page 34:3-12 re jury clause

violation of free speech, petition, association and excessive

43

44

punishment clauses due to forfeiture of Jane L. Marsh intestate

17:22-26 re open hostility against Petitioner Weiss by Judge

succession rights. G052082 Opposition to Motion to Dismiss Appeal

Hubbard. G052208 AOB page 10 paragraph one re free speech,

page 5 last 5 sentences re due process clause violations concerning

association, petition and excessive punishment clause infringements

unfair and unconstitutional acts by respondents as to sale of Irvine

concerning pre-filing order and post-appeal documents showing

condo and infringement of equal protection clause due to

Petitioner Weiss being treated unfairly and blacklisted. G052208

discrimination on grounds of race, national origin, religion, and

AAO page 2213 last part of paragraph 3 re due process clause

mental disability. G052082 Petition for Rehearing page 16

infringement because of change of burden of proof requirements;

paragraphs 25 and 26 re existence of current standing under U.S.

page 2447 paragraph 11 re due process clause taking of property

Constitution to claim due process clause infringement and pointing

and/or right to acquire it. G052208 Petition for writ of supersedeas

to AAO citations; page 27 paragraph 52 due process clause violation

page 10 last 2 sentences re due process clause infringement because

re lack of notice on ex parte petition to sell property notwithstanding

of prior void orders; page 17 at sentence 4 re due process clause

appeal. G052082 Petition for rehearing page 16 paragraphs 25 and

violation concerning standing to claim community property interests;

26; page 27 paragraph 52 contain same content as immediately

page 19 last sentence indicating that RT showed no evidence was

above. G052082 RT of 1-23-15; 2-27-15; 4-7-15 page 10:1-23 re

offered, received, or considered, at time of hearing. G052208 Writ of

free speech, petition and association clause and due process cause

Supersedeas re sale of real property page 1 paragraph one re due

due to no evidence and structural defect; page 15:16 etc re nine of

process clause violation because ex parte practice; page 16 first

eleven new petitions in probate barred by unconstitutional

sentence re due process clause violation because of insufficient

application res adjudicata; 15:21-24 Jane L. Marsh deprived of

evidence; page 23 at sentence 1 re due process clause; page 198

standing to object to absence of assigned judge Schulte; page

paragraphs 1 through 4 because Code of Civ.Proc. 128.7 order

45

46

infringed upon free speech, petition, and association clauses because

appeal page 8 last paragraph re due process clause infringement in

of lack of safeguards (procedural and substantive) and infringement

G044938 opinion due to drive-by jurisdictional ruling; page 12

of property and liberty rights; page 199 topic 3 paragraph one re free

paragraph M re due process clause violation because of

speech clause infringement concerning lis pendens; page 218

unconstitutional res adjudicata characterization. G054553 Demurrer

paragraph 35 infringement of right to file pleadings; free speech,

to OSC concerning pre-filing order and sanctions p. 8 to 13 re

petition and association clauses violated due to lack of safeguards.

supremacy clause infringement because two petitions for preliminary

G052574 ARB page 28 paragraph one re Jane L. Marsh 9 new

distribution violated Due Process Cl since standing to complain of

probate petitions alleging infringement of free speech, petition,

new constitutional violations existed, with cites to AAO; page 15

association excessive punishment, and supremacy clauses because

paragraph 23 respondents misleading court by submitting pleadings

trial judge punished her by striking out her petition to compel

without their vital exhibits and 850 summary judgment was product

respondents to perform their duties in compliance with Probate

of lack of full and fair trial; Justice O’Leary deprived appellants of

Code. G052574 Petition for rehearing page 16 paragraph 25, 26;

full and fair hearing because she submitted no evidence to support

page 27 paragraph 52. Same content is to be found repeated in

her claim to courts costs due to frivolous appeal and appeared to be

identical petitions in G052208 and in G052082. G052574 Motion to

joining forces with respondents in violation of due process clause.

recall remittitur page 25 2nd to last sentence. The same content is

G054553 Opposition to OSC concerning sanctions and pre-filing

found identical motions in G052208; G052082; G046446; and

order page 18 paragraph 17 re petition clause violation by Court of

G044938. G052574 Opposition to motion to dismiss appeal page 2

Appeals due to dismissing appeals without exam of current evidence

paragraphs 4, 5 and paragraphs 8 and 9 and 13 and 15. The same

on standing. G054796 Opposition to Motion to dismiss appeal page

content is found in G052208-20. G054553 re amending the notice of

22 last paragraph re contract clause violation; page 33 last 2

47

48

sentences re structural defect in Probate Code 850 summary

seizure clause infringement. G054796 Opposition to OSC

judgment. G054796 Objection to evidence re motion to dismiss

concerning sanctions and pre-filing order p. 18 paragraph 17 re

appeal page 19 paragraph one re due process clause violation

petition clause violation. G054796 AOB page 8 first 2 sentences re

because orders were supported by no evidence since RT’s of the

due process violation because no evidence offered nor received at

hearings on 6-10-15 and 1-11-17 showed it, furthermore the 7-15-15

time of hearing on 2 preliminary distribution petitions; page 14

ex parte order to carry out sale notwithstanding the appeal was an

paragraph 2 re due process clause violation because of no evidence

unauthorized proceeding infringing due process clause rights.

as well as bias and favoritism by trial judge; p.25 3rd sentence re

G054796 Opposition to OSC concerning sanctions and pre-filing

standing denied to raise challenge to performance of statutory and

order page 14 last 2 sentences re excessive punishment clause

constitutional duties by respondents infringed on due process clause;

infringement due to forfeiture of $640,000 mortgage pay back

page 57 paragraph one re petition clause infringement; page 60 last

money and $821,000 community accumulation money given away

paragraph. G054796 AAO Vol 3 page 663 paragraph 5 and 6

by spouse during marriage; page 18 paragraph 17 re petition clause

concerning continuing infringement of due process clause because of

infringement and paragraph 21 re due process clause infringement;

bias; page 690 last sentence and page 691 first 3 sentences and para

page 30 last sentence re access to court denial and page 31 sentences

1 through page 699 re due process clause infringement due to

one through 3 re due process clause violation by respondents telling

patently arbitrary orders confirming sale of Irvine condo and to carry

trial judge they would not sell Irvine condo to Petitioner Weiss nor

it out notwithstanding appeal, discrimination based on race, national

Estate of Jane L. Marsh at any price or on any terms whether it be

originl and religion, infringement of right to free speech and

$1.1 million or $2.1 million thus exhibiting unfair trial in violation

association; and, excessive punishment as to 2-27-15 order; page 701

of due process clause; page 37 paragraph 30 re 4th amendment

last paragraph re due process clause infringement; page 765

49

50

paragraph 8 re false evidence presented and respondents joining

G044938 AAO at page 66 paragraph 70; page 208 paragraph 5; page

forces with trial judge Belz stating We’ll end up with an order to get

209 paragraph 6; page 364 paragraph 70 and paragraph 10. G044938

this thing sold if you let me change the terms of sale today at the

Response to OSC re Sanctions page 9 paragraphs 1 and 3. G045474

hearing because I can get an order to sell notwithstanding appeal and

Petition for Rehearing at page 10 paragraph 3 through p. 11

prevent any shenanigans in court of appeals; page 768 paragraph 13,

paragraphs 1 through 3. G045474 AAO at p. 90 response box 3 of

17, 18, and 19 re infringements of due process clause because of

Judge Sherman; page 666 paragraph 5 through page 667:8. G046446

patently arbitrary conduct followed by presenting no evidence but

AOB at page 9 paragraph one. G052208 AOB at page 2249

getting orders to sell anyway and infringement of excessive

paragraph 19. G052208 ARB at page 43 entire last paragraph.

punishment clause.

G052574 AOO at page 1857 last paragraph; page 3823 paragraph

C. FUNDAMENTAL PRINCIPLES

70. G054796 AOB at p. 42 entire last paragraph. G054796 AAO at

G044938 AOB at page 27 paragraph G, p. 28 through first 5

page 643 topic one and page 651:20-22 Mr. Magro says Weiss is

sentences (Jane L. Marsh has fundamental rights to privacy and

infringing on his fundamental right and is causing harm to him by

freedom from arbitrary government action [not just marital

false recitals and that he is not causing harm to any interested person

partnership theory] to which Justice Rylaarsdam replied that

or creditor.

Petitioner Weiss is violating fundamental probate and family law
principles in his opinion in G044938 at page 20 last paragraph and
G045474 at page 20 last paragraph. Also see G044938 RT of oral

D. LACK OF JURIS IN PROBATE & UNCLEAN HANDS re
$640,000 CASHIERS CHECK
The $640,000 cashiers check is exhibited in the following

argument page 17:5 through 18:7 where Petitioner Weiss is asserting

documents: G044938 appellants appendix (hereafter AAO) 4a page

4th amendment search and seizure as well as privacy rights.

105 (electronic p. 115) (Mo Vacate Dismissal of Jane’s 1st amended

51

52

complaint (hereafter IAC) at its Ex 6); G045474 AAO 19 page 163

p. 2475 (electronic p. 2482); G052574 AAO 26 Jane’s Proposed Obj

(electronic page 175) (1st Amended Will Contest); G046446 AAO

to Petn to Confirm Sale of RP at its Ex 1 p. 105 (electronic p. 1780);

30 p. 662 (electronic p. 675) (Evid in Oppo to SJ Motion at its Ex 7

and at its AAO 21 (which was ROA from G045474 at its AAO 19

at its Ex 6 which was Jane’s 1AC); G048211 respondent appendix

1AC p. 163 (electronic p. 3862); and at its AAO 17 (which was ROA

(hereafter RA) 16 p.303 (electronic p. 326) (Petn to Determine

from G052208 at its AAO 39 the 6-20-15 Proposed Obj to Petn to

Persons Entltled to Distr at its Ex 4 which was JLM 1st Amended

Confirm Sale of RP at its Ex 1 p. 1788 (electronic p. 1788) and at its

Will Contest); G051978 (electronic p. 124) (Petn for Mandamus

AAO 21 (which was ROA from G045474 at its AAO 19 JLM 1st

Support Docs at its Petn for Probate Homestead); G052082 AAO 11

amended Will Contest at its Ex 6 p. 168 (electronic p. 3862); and at

p. 216 (electronic p. 222) (Demurrer to 4 Combined Petns at its Ex 5

its AAO 22 (which was ROA from G044938 at its AAO18 JLM

at its Ex 6); G052082 RA 6 p. 215 (electronic p. 222) (Req for JN in

1AC at its 6 p. 4015 (electronic p. 4017); G052574 RA at its Ex 5 p.

connection with Demurrer to 4 Combined Petns. NOTICE RA 7

157 (electronic p. 162) [JLM 1AC).

omission of Cashiers Check from their Corrected Req for JN p. 244;

E. JLM NOTICE -ELECTION TO TAKE UNDER LAW

G052208 AAO 17 page 2008 (electronic p. 2015) (Req for JN re

March 3, 2010 Response and Objection to Petition to Probate a

Sanctions at its Ex 5); and at its AAO 22 p. 2241 (electronic p. 2248)

Will and for Letters (see G045474 at AAO 23 at page 222 paragraph

Ex Parte Appl for Med Emergency (re Proposed Petn Confirm sale

3) [Jane L Marsh] will be electing to pursue her spousal rights in

RP); and at its AAO 30 p. 2333 (electronic p. 2340) (Proposed Petn

regard to the family residence including suit for breach of fiduciary

for Probate Homestead at its Ex 8); and at its AAO 39 p. 2476

duties by decedent. [She will be] seeking among other things

(electronic p. 2483) (Proposed Obj to Petn to Confirm Sale of RP at

recovery with respect to other community property that belongs to

Ex 1. NOTICE Obj at para 13 grounded on UNCLEAN HANDS

her; also see her September 29, 2011 Reply Brief in G044938 at

53

54

page 2 paragraph 6 the decedent’s last will is completely irrelevant
to any issue in the civil matters as appellant has elected to take

COULD PAY MORTGAGE
Petitioner Weiss pointed this out to the appeals court as the RT

against decedent’s will and not under it; page 17 paragraph 64

of oral argument in G044938 revealed. See page 15:26 through

appellant in writing elected to take against decedent’s will; her

16:13, and page 26:9-12 which shows Justice O’Leary had notice

Opening Brief in GO45474, at page 3 paragraph 1 stating appellant

that Jane L. Marsh paid the mortgage from money lent to her. Page

in writing elected to take against decedent’s will since it stated that

27:26 through P. 28:45 Justice Fybil acknowledged that an heir

all property owned by me is my separate property, see also page 5

could pay off the mortgage and p. 29:5-20; and page 30:9-17 (Same).

paragraph 8 citing Estate of King (19 Cal.2d 354, 364) regarding

The RT of oral argument in G044938 reveals that respondents

election; paragraph 10 citing Burch (7 Cal 4th 246, 265) regarding

informed the Justices that Monroe probably did not leave enough

forced elections, and paragraph 12 citing Estate of Murphy (15 Cal

money for them to repay the underlying $640,000 mortgage debt;

3rd 907); her November 12, 2012 Petition for Writ of Stay,

and subsequently they told Judge Monarch at the very first

Prohibition, and Mandamus filed in California Supreme Court in

settlement conference that they would have let the property go to

case S206551 which was filed regarding the opinions in GO46446,

foreclosure and thereafter expressed no intent of ever acquiring it for

GO45474, and GO44938, at page 10, 2nd to the last sentence, stating

themselves as co-executors nor as individuals as they could have

because petitioner elected to exercise her rights under law decedent’s

under the terms of the trust deed.

disposition of community property earnings and her other

G. UNFAIRNESS ISSUE

community and separate property which stood in the name of

G044938 AAO page 309 paragraph 13. G044938 RT oral

decedent only were invalid dispositions.
F. COURT APPEALS ACKNOWLEDGE THAT HEIR
55

argument Court of Appeals at page 32:15 through p. 33:11 and 16-18
and 22: through p. 34:5 and 19: through p. 35:1 and page 36:9-10.
56

G045474 RT of 5-5-11; 5-12-11; 5-13-11; 5-17-11 at page 32:7.

at page 33 last sentence. G054796 Response to Courts Own Motion

G046446 RT of 5-12-11; 9-14-11; 10-13-11; 1-5-12 at page 2:7.

to Impose Monetary Sanctiuons for Frivolous Appeal at page 19

G048211 AAO at page 712 paragraph 5. G048211 ARB at page 23

sentence 2 (Magro). G054796 Motion to Vacate or Reconsider Order

paragraph one; page 28 paragraph one. G052082 Petition for

Denying Appeal at page 12 paragraph 7. G054796 AAO at page 585

Redhearing at page 22 paragraph 39 saying the same thing in

para. 9.

G052574 Petn for Rehearing at page 22 paragraph 39. G052208

H. FALSE RECITALS IN ORDERS

AOB at page 10 paragraph one and p. 24 paragraph 9. G052208

G044938 RT of oral argument in Court of Appeal at page

AAO at page 2187 paragraphs 5 through 8, and paragraph 11.

37:16-22 false misrepresentation about trust deed allowing 6 months

G052208 ARB at page 36: entire page. G052208 Request to

to repay mortgage. P. 38:15-24 false representation that Jane L.

Presiding Justice to Excuse Service of Specially Filed Motion for

Marsh dismissed her family allowance petition on day of trial; rather

Temp Stay at page 11 last paragraph: P. 13 Sentence 4. G052574

it was because Mr. Magro demanded it be dismissed before he would

AOB at page 16: paragraph 2. G052574 Oppo to Motion to Dismiss

talk settlement. G045474 Motion to Recall Remittitur at page

Appeal at p. 5 last 2 sentences; page 4 last sentence of paragraph 12

59:14-18. G048211 RA [respondents appendix] at page 591:22

and paragraph 13. The identical language is found in G052208-20 as

through P. 592:4 Mr. Magro says it is false that Judge Monarch said

well as in G052082 at page 5 whole page. G054553 Reply to Oppo

I never denied anything to you. G052574 AOB at page 38 before

re Motion For Permission to File Amended Notice of Appeal at

paragraph one and page 53 paragraph one. G052574 ARB at page 18

pages 7, 8 and 9. G054553 Motion to Vacate or Reconsider Order

paragraph one. G052574 Motion to recall remittitur at page 20

Dismissing Appeal at page 12 paragraph 7. G054796 Opinion page

paragraph one; and, the same contention is to be found in G052208

12 paragraph 2. G054796 Opposition to Motion to Dismiss Appeal

(same motion); and in G052082 (same motion); and G046446 (same

57

58

motion); and G044938 (same motion). G054553 Motion to file

JANE MARSH
11-23-09

amended notice of appeal at p.32 paragraph 31. G054796 Objection
to evidence & request for judicial notice re Motion to Dismiss
Appeal at page 9 paragraph one; page 13 at (5) and (6). G054796
Opposition to OSC re Vexatious Litigant and Sanctions at page 15
paragraph 12. G054796 AOB at page 20 paragraph 5; page 21
paragraphs 6, 7 and 8. G054796 AAO at page 712 before paragraph
one; page 728 paragraph one; page 763 paragraph 5; page 764
paragraph 6; page 765 paragraph 8; page 766 paragraph 7 through 9;
page 768 paragraph 13; page 643 topic one (Magro) says he is not
causing injury to any interested personal creditor but rather that

FINANCIAL FREEDOM
PO Box 85400
The Reverse Mortgage Specialist Austin, TX 78708
Telephone; 800-441-4428
Fax (866) 923-9006
December 28, 2009
Estate of the Monroe Marsh
51 Lakefront
Irvine, CA 92604
RE: Marsh, Monroe F
51 Lakefront
Irvine, CA 92604
Loan number; CS11402898
Cash Account Reverse Mortgage Repayment
Notice
Dear Marsh;
We are saddened to have recently learned of the passing of

Petitioner Weiss is doing harm to him; page 651:20-22; page 722
Monroe F Marsh and wish to convey our deepest sympathy to you
paragraph 19.
and all family and friends.
10. OTHER MATERIAL ESSENTIAL TO UNDERSTAND THE
PETITION
A. TRUST DEED PAYOFF DOCS (Partials)
PARTIES
I ELECT
MY RIGHTS
UNDER LAW
MONROE MARSH’S
NOT HIS ^ WILL
_________/S/______________
59

As you may be aware, Monroe F Marsh obtained a reverse
mortgage secured by the above referenced property and serviced by
financial freedom. Unlike traditional forward mortgages, reverse
mortgages permit seniors to tap the equity they have built up over
the years in their home without requiring monthly mortgage

60

payments to satisfy the loan obligation. Upon the occurrence of a

repayment notice for additional information on matters that should

maturity event, of which the borrowers passing is one, the loan

be taken into consideration in arranging repayment of the loan.

becomes due and payable. As we notify you now that the above

We regret having to direct your attention to these matters during

referenced loan is due and payable, we are hopeful that our services

this difficult time and want to assure you we are available to help

have been true to our mission and have enhanced the financial

you through the process.

security and independence of Monroe F Marsh.

Sincerely, Lisa Harkness

It is our objective to make the repayment process as simple as

800-441-4428 ext 2897

possible. The first step that we ask a view is to please provide us
with the details of your plans for paying off the loan by filling out
the enclosed repayment questionnaire form and returning it to us
immediately. Once we have this information, we will contact you to

00983 11-24 CASHIER’S CHECK
SERIAL #: 0098303959
ACCOUNT # 4861-505303

schedule repayment of the loan.
There are other factors we feel are important to bring to your
attention. Until the loan is repaid, interest, mortgage insurance and
monthly servicing fees will continue to accrue and be added to the
principal balance of the loan. This simply means the loan balance
will continue to grow until the loan is paid off. In addition, until the
loan is paid off, property taxes must continue to be paid and hazard
insurance must be kept in force. Please refer to the enclosed
61

Office AU# 1210 (8)
Purchaser: LAW OFFICES OF MICHAEL WEISS
Purchaser Account: 0436611842
Operator ID: cu 020308 cu 003816
February 04, 2010
PAY TO THE ORDER OF ***FINANCIAL FREEDOM
ACQUISITION LLC***
**$638,963.86**
***Six hundred thirty-eight thousand nine hundred sixty three
dollars and 86 cents***
Wells Fargo Bank, N. A.
Void if over US
$638,963.86
4850 Barranca Pkwy.
Non-negotiable
62

Irvine, CA 92604
For inquiries call (480) 394-3122
PURCHASER COPY

earthquake damages, including cracks in certain walls and in the
garage flooring; as well as the fact that the upstairs doors to two
rooms (above garage) will not close due to foundation shifting.
Purchaser has knowledge of and agrees to accept the property despite

CONTRACT OF SALE OF LAND
Agreement made this 3rd day of March 2010 between Jane L.

its need for re-flooring, re-windowing and blinds, and re-electrical,
plumbing work including new sinks and water faucets throughout,

Marsh (hereafter Seller) and Michael Weiss (hereafter Purchaser),

new toilets, and any other and further repair work. Purchaser

WITNESSETH

acknowledges that the premises are about 35 years old and that no

(1) The seller agrees to sell and convey to purchaser; and, the

replacement of any appliances have been made. Purchaser

purchaser agrees to purchase the premises located at 51 Lakefront,

acknowledges that the appliances in the premises are old and many

Irvine, California 92604, with building thereon, situate in the County

of which are in disrepair, including but not limited to the kitchen

of Orange, State of California.

built-in microwave oven, refrigerator, wash machine and dryer.

(2) The purchase price is $231,061, love and affection; and all

Purchaser acknowledges that the telephones need replacement, as

non-recoverable attorney fees and costs spent in pursuit of rights of

does the living room couch, and the bed in the upstairs master

seller against Estate of Monroe Marsh, the first of which shall be

bedroom. Purchaser also agrees to pay off all homeowner association

deducted from the February 4, 2010 loan from purchaser to seller in

application and closing expenses. Purchaser acknowledges he will

the amount of $638,963.86. Said loan was used to pay off the

never be able to change any part of the outside design, look,

balance of a reverse mortgage on the premises.

appearance or condition of the premises due to restrictive

(3) The property is sold "as is where is." Purchaser acknowledges
63

Homeowner Association CCR's. Purchaser acknowledges he will
64

never be able to tear-down and rebuild the preemies again due to

Why did you not record a reconveyance?

Homeowner Association CCR's.

As you requested I sent by FedEx a cashier’s check weeks ago.

(4) The obligation of the seller to deliver the deed and the

Enclosed is affidavit of surviving spouse for your records.

obligation of the purchaser to accept such delivery and to pay the

_________s_________

purchase price therefor are conditioned upon execution and delivery

Michael Weiss

of a lease-back of the property to Seller.
In witness whereof the parties hereto have hereunto set their
hands.
Date: March 3, 2010
_______/s/_____
Jane L. Marsh, Seller

__________/s/_________
Michael Weiss, Purchaser

MICHAEL WEISS
ATTORNEY AT LAW
2030 MAIN ST. #1300
IRVINE, CA 92614
TELEPHONE (949) 260-9103
FAX (949) 260-9105
E-MAIL; MICHAEL-WEISS @MSN.COM
To: Lisa Harkness
3-11-10
Where is my reconveyance on Monroe Marsh payoff?
65

Please complete this information
recording requested by
and when recorded mail to:
Michael Weiss
51 Lakefront
Irvine, CA 92604

This space for recorders use
only
_______________________________________________________
Title of document:
AFFIDAVIT OF SURVIVING SPOUSE
Succeeding to Community Property (California Probate Code
section 13540)
This document provided by Commonwealth Land Title
Company
STATE OF CALIFORNIA )
COUNTY OF Orange
)
______________________
Jane Lucille Marsh of legal age, being first duly sworn, deposes and

66

says:

widower”. During our seven-year marriage about $186,000 of

1. Monroe F Marsh, the decedent mentioned in the attached certified

community funds were paid on the reverse mortgage to reduce its

copy of certificate of death, was married to Affiant at the time of

principal. I paid off the approximate $633,061 balance just after his

decedent’s death.

death by way of exhaustion of my separate funds and the loan from

2. Affiant and decedent at all times considered the following real

my son. Monroe took over sole and exclusive control of the

property situated in the County of Orange, State of California to be

community property; yet, never made any meaningful disclosure to

community property: Unit 31 of Lot 6 of tract number 12223, as

me of our community assets, liabilities, and transactions, nor about

more particularly described in Exhibit A. Assessor’s parcel number

his separate assets, liabilities and transactions. Monroe did however

934-67-046.

constantly refer to the property at 51 Lakefront as our home; and was

3. More than forty (40) days have passed since decedent’s death.

using our income to pay off the reverse mortgage. I have now

There has not been nor will there be an election filed pursuant to

discovered that he acted as if he were a single man in taking out the

Probate Code section 13502 concerning this property.

reverse mortgage and opening bank and stock trading accounts.

I have full power to sell, lease, encumber and otherwise deal with

Throughout our marriage Monroe commingled our community funds

such property pursuant to Probate Code 13540 based upon the

with his separate funds to such an extent it is now impossible to

following facts: Monroe Franklin Marsh (hereinafter Monroe)

trace. During our 7 years of marriage I was never paid any monies

married me on 2-6-2003 in the Beverly Hills, California courthouse;

from the income Monroe earned by his labors. I therefore claim full

and we took up our family residence at 51 Lakefront, Irvine,

ownership of the 51 Lakefront, Irvine property, am recording a

California. It was not until after his death that I discovered the false

homestead declaration on it; and, then dispose of it by conveyance to

details of a reverse mortgage he took out on it 10-20-2003 as “a

my son while reserving a life estate in it for myself.

67

68

March 3, 2010

of trust in place and stead of original trustee, now therefore, the

Signature: _____s__ Jane Lucille Marsh

undersigned hereby substitutes himself (themselves) as trustee under
said deed of trust and does hereby reconvey without warranty to the
persons legally entitled thereto all estate now held by it under said
deed of trust.
Date: 02/23/2010

Requested by Nationwide Title Clearing
when recorded mail to
Monroe F Marsh
51 Lakefront
Irvine, CA 92604
(Trustor)
Recorded in Official Records, Orange Co.
Tom Daly, clerk-recorder
2010000126498 12:13 p.m. or 3/17/10
276418S15401 1
0. 000. 000. 000. 000. 000. 000. 000. 00
Loan: 140-2898
SUBSTITUTION OF TRUSTEE and FULL
RECONVEYANCE
Whereas Monroe F Marsh was the original trustor under that
certain deed of trust recorded on 10/27/2003 in the office of the
County recorder of Orange County, California, as instrument number

MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.
(MERS) AS NOMINEE FOR FINANCIAL FREEDOM
ACQUISITION LLC
by:______s________
Karen Compton Asst. Secretary
State of Michigan County of Kalamazoo
The foregoing instrument was acknowledged before me this 23rd
day of February in the year 2010 by Karen Compton, personally
known to me to be the ASST. SEC. OF MORTGAGE
ELECTRONIC REGISTRATION SYSTEMS, INC. (MERS) AS
NOMINEE FOR FINANCIAL FREEDOM ACQUISITION LLC, A
DELAWARE corporation, on behalf of the corporation.
______s_____
Carl Reed
Carl M. Reed
Notary Public, State of Michigan
County of Kalamazoo
My commission expires APR 11, 2012
Acting in the County of Kalamazoo
Prepared by: Jessica Fretwell/NTC, 2100 Alt. 19 North, Palm
Harbor, FL 34683 (800) 346-9152

2003001315135 in book, page
Whereas, the undersigned, as the present Beneficiary(s) under
said deed of trust desires to substitute a new trustee under said deed
69

70

